WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8089

Emem Ufot Udoh Minnesota Dep't of Human Servs. et al.
(Petitioner) Vv. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
Oo Tam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

City of Maple Grove, City of Maple Grove Police Department, Melissa Malecha (Parker), City of Plymouth,
City of Plymouth Police Department, Molly Lynch, Kevin Pregler |

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

Signature: fe DD fsa -

Date: 6/7/21

 

 

 

(Type or print) Name IPaul D, Reuvers

© wr, O Ms. O mrs. O Miss
Firm Iverson Reuvers
Address 9321 Ensign Avenue South
City & State Bloomington, MN Zip $5438
Phone (952-548-7200 Email paul@iversonlaw.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Emem Udoh, Tonya Udoh, Frederic Argir and Ali Afsharjavan, Christiana Martenson, John Edison,

ce: Michael Waldspurger, John Marti
